                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM




         We received an allegation that the subjects' received NSF awards that were based
         onlcontained plagiarized (intellectual theft) ideas.

         Our review of the subjects' NSF proposal submission history showed that subjects 1 and 2 never
         submitted a proposal to NSF. Further, subject 3 submitted only one proposal to NSF about 30
         years ago, which was dec~ined.~ Therefore, we lack jurisdiction in this matter.

         This case is closed and no W h e r action will be taken.




                          >

                                                                                            I
NSF OIG Form 2 (1 1/02)
